Nos. 19-840, 19-1019

tbe Oupreme Court of the tittiteb ibtatett
THE STATE OF CALIFORNIA, ET AL., PETITIONERS,
v.
THE STATE OF TEXAS, ET AL.
THE STATE OF TEXAS, ET AL., CROSS-PETITIONERS,
v.
THE STATE OF CALIFORNIA, ET AL.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR LAMBDA LEGAL DEFENSE & EDUCATION
FUND, INC., ET AL. AS AMICI CURIAE IN SUPPORT OF
PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,975 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 13, 2020.

Colin Case Hogan
Wilson-Epes Printing Co., Inc.

